Report No. D-2008-090         May 13, 2008




            Controls Over Reconciling
           Army Working Capital Fund
               Inventory Records
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AMC                   Army Materiel Command
AMCOM                 Aviation and Missile Life Cycle Management Command
AR                    Army Regulation
AWCF                  Army Working Capital Fund
CCSS                  Commodity Command Standard System
CECOM                 Communications-Electronics Life Cycle Management
                           Command
DSS                   Distribution Standard System
IAR                   Inventory Adjustment Report
LCMC                  Life Cycle Management Command
LMP                   Logistics Modernization Program System
TACOM                 TACOM Life Cycle Management Command
                              INSPECTOR GENERAL
                             OEPARTMENT OF DEFENSE

                             400 ARMY NAVY DAIVE

                        ARLINGTON, VIRGINIA 22202-4704





                                                                             May 13,2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
                AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Controls Over Reconciling Army Working Capital Fund Inventory Records
         (Report No. D-2008-090)


       We arc providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.

       ODD Directive 7650.3 requires that all recommendations be resolved promptly.

The comments of the Program Executive Officer, Enterprise Information Systems on

Recommendation 4. were not responsive. We request that the Program Executive
Officer, Enterprise Information Systems provide additional comments on
Recommendation 4. by June 13,2008.

        If possible. please send management comments in electronic format (Adobe

Acrobat tile only) to AUDDFS@dodig..mil. Copies of the management comments must

contain the actual signature of the authorizing official. We cannot accept the I Signed I

symbol in place of the actual signature. If you arrange to send classified comments

electronically. they must be sent over the SECRET Internet Protocol Router Network

(SIPRNET).

       We appreciate the courtesies extended to the stafT. Questions should be directed
to Cannelo G. Ventimiglia at (3 I7) 510-4801, extension 275 (DSN 699-4801) or
Mr. Robert J. Ringwald at (3 I7) 510-4801, extension 272 (DSN 699-4801). See
Appendix D for the report distribution. The team members are listed inside the back
cover.




                                        fJJ~ it I!1rNul
                                         Patricia A. Marsh, CPA
                                      Assistant Inspector General
                                   Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-090                                                       May 13, 2008
   (Project No. D2007-D000FI-0061.000)

            Controls Over Reconciling Army Working Capital Fund 

                             Inventory Records 



                                   Executive Summary 


Who Should Read This Report and Why? DoD and Army officials responsible for
reconciling differences in inventory balances between DoD inventory management
systems should read this report. This report discusses weaknesses in guidance for
performing reconciliations and controls over the process of reconciling the Army
Working Capital Fund (AWCF) inventory balances reported in the Distribution Standard
System to the Army’s supply records.

Background. The Defense Distribution Center, which stores most AWCF inventory at
26 worldwide distribution centers, and the Army Life Cycle Management Commands
(LCMCs), which manage AWCF inventory, rely on different inventory management
systems that do not share the same inventory records. Consequently, the Defense
Distribution Center and the LCMCs annually perform a 100-percent reconciliation of
inventory records. In addition, the distribution centers and the LCMCs reconcile
inventory records daily, as part of end-of-day business processes, for items having supply
activity during the business day. The Distribution Standard System, the materiel
management system for the distribution centers, generates a computer file of the asset
balances for the AWCF inventory managed by the LCMCs. The LCMCs match the
Distribution Standard System reported inventory balances with inventory balances
recorded in the AWCF supply systems. When differences exist between systems, the
AWCF supply systems automatically create an inventory accounting adjustment gain or
loss transaction to adjust inventory balances to agree with those recorded in the
Distribution Standard System. The AWCF supply systems generate an Inventory
Adjustment Report that identifies all inventory accounting adjustments processed during
the month. LCMC inventory personnel are responsible for researching the inventory
accounting adjustments and processing any corrections resulting from erroneous,
missing, or duplicate supply transactions. The LCMCs are also responsible for working
with the distribution centers to isolate causes of record imbalances to maintain
transaction-level integrity.

Results. The LCMCs did not adequately review inventory accounting adjustments or
correct the erroneous, missing, or duplicate supply transactions causing the discrepancies
in inventory balances recorded in the Distribution Standard System and the AWCF
supply systems. Not reviewing and correcting adjustments results in inaccurate inventory
records; distorted reports that inventory managers use to make decisions to buy, repair,
and excess materiel; and unreliable and inaccurate financial reports used to measure the
performance of the AWCF Supply Management, Army activity group. The Office of the
Under Secretary of Defense for Acquisition, Technology, and Logistics should revise the
guidance and criteria for performing the annual and end-of-day inventory reconciliations
in DoD 4000.25-2-M, “Military Standard Transaction Reporting and Accounting
Procedures.” The Office of the Deputy Chief of Staff for Logistics (Army G-4) needs to
update Army Regulations 740-26, “Storage and Supply Activities, Physical Inventory
Control,” and 735-5, “Property Accountability, Policies and Procedures for Property
Accountability,” based on the revised guidance in DoD 4000.25-2-M. In addition, the
U.S. Army Materiel Command should establish procedures requiring the LCMCs to
report the information required to effectively oversee the annual and end-of-day
reconciliations of inventory records and address the underlying system and operational
issues requiring corrective action. The Army Program Executive Officer, Enterprise
Information Systems should change the Logistics Modernization Program system
functionality to provide the system capability to reverse inventory accounting gain and
loss adjustments created by the inventory reconciliation process. (See the Finding
section of the report for the detailed recommendations.)

Management Comments and Audit Response. The Deputy Under Secretary of
Defense for Logistics and Materiel Readiness, Office of the Under Secretary of Defense
for Acquisition, Technology, and Logistics partially concurred and stated that his office
would review DoD 4000.25-2-M and require storage activities and materiel managers to
reconcile inventory records before conducting the annual physical inventories in
September. The Director of Supply, Office of the Deputy Chief of Staff for Logistics
(Army G-4) concurred and stated that Army G-4 will update Army Regulations 740-26
and 735-5 based on the revised requirements of DoD 4000.25-2-M. The Director for
Internal Review and Audit Compliance, responding for the Commander, U.S. Army
Materiel Command, partially concurred with the need to improve oversight of the annual
and end-of-day inventory records reconciliations. The Director stated that the LCMCs
are analyzing reconciliation data and reporting on actions taken or planned to address
system and operational issues causing inventory gain and loss adjustments. The Director
partially agreed with the need for all the LCMCs to report on the results of the end-of-day
inventory records reconciliations. She stated that the Communications-Electronics
LCMC, which uses the Logistics Modernization Program system, would submit quarterly
reports on the results of the end-of-day reconciliations. The Director stated that the other
LCMCs would start to report the results of the end-of-day reconciliations upon fielding
of the Logistics Modernization Program system. In addition, the Director stated that
Army Materiel Command would issue interim guidance for performing the annual and
end-of-day reconciliations and require the LCMCs to include more detailed guidance in
their written operating procedures. We consider management comments responsive. The
Director disagreed with the audit conclusion that material internal control weaknesses
existed in the inventory reconciliation process.

The Director for Acquisition Management, Army Program Executive Office, Enterprise
Information Systems nonconcurred with the recommendation to give the Logistics
Modernization Program system the capability to reverse inventory accounting gain and
loss adjustments created by the inventory reconciliation process. The Director stated that
the system did not allow for the cancellation of standard inventory adjustments, and for
audit and security reasons, it is a best business practice not to allow for the cancellation
of transactions. We consider the Director’s comments nonresponsive. We do not agree
with the current process for correcting inventory accounting adjustments. The current
process creates an offsetting gain or loss adjustment, which results in an overstatement of
both the Gross Cost and the Earned Revenue lines on the Consolidated Statement of Net
Cost. The gain or loss transactions should be reversed, not cancelled. We request that
the Army Program Executive Officer, Enterprise Information Systems reconsider its
position and provide additional comments on the final report by June 13, 2008. See the
Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.


                                             ii
Table of Contents 


Executive Summary                                                             i


Background                                                                    1


Objective                                                                     3


Review of Internal Controls                                                   3


Finding
     Army Working Capital Fund Inventory Accounting Adjustments               4


Appendixes
     A.   Scope and Methodology                                              21 

     B.   Prior Coverage                                                     23 

     C.   Life Cycle Management Command Standard Operating Procedures        24 

     D.   Report Distribution                                                26 


Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   27 

     Deputy Chief of Staff, Army G-4                                         28 

     Program Executive Office, Enterprise Information Systems                29 

     U.S. Army Materiel Command                                              31 

Background 

    The Supply Management, Army activity group of the Army Working Capital
    Fund (AWCF) buys and manages materiel for sale to Army operating units and
    other DoD customers. The Army Life Cycle Management Commands (LCMCs),
    major subordinate commands of the U.S. Army Materiel Command (AMC), are
    the materiel managers for the Supply Management, Army activity group. LCMC
    responsibilities include acquisition, stock control, and requisition processing for
    the inventory of repair parts and supplies used to support Army-managed systems
    and equipment. In addition, the LCMCs maintain the supply records and are
    responsible for ensuring that the information in the AWCF supply systems is
    correct. The LCMCs are:

           •	 Aviation and Missile Life Cycle Management Command (AMCOM),
              in Huntsville, Alabama, which manages aviation and missile systems
              along with the supporting equipment;

           •	 Communications-Electronics Life Cycle Management Command
              (CECOM), at Fort Monmouth, New Jersey, which manages
              communications and electronics systems; and

           •	 TACOM Life Cycle Management Command (TACOM), formerly
              known as the Tank and Automotive Command but now simply as
              TACOM, has organizational activities in Warren, Michigan; Rock
              Island, Illinois; and Natick, Massachusetts. TACOM-Warren manages
              combat, automotive, and construction items; TACOM-Rock Island
              manages weapons and fire control systems; and TACOM-Natick
              manages ground support items and chemical weapons. TACOM-Rock
              Island performs the inventory reconciliation function for
              TACOM-Natick.

    The LCMCs use either the Commodity Command Standard System (CCSS) or the
    Logistics Modernization Program system (LMP) to manage materiel for the
    Supply Management, Army activity group. CECOM currently operates LMP, and
    the Army plans to field the LMP at the other LCMCs by the 4th quarter, FY 2010.
    The AWCF Supply Management, Army activity group reported gross sales of
    $10.1 billion in FY 2007. As of September 30, 2007, the net inventory value
    totaled about $19.7 billion.

    The Defense Distribution Center, which is managed by the Defense Logistics
    Agency, provides a single, unified materiel management and distribution system
    for the Military Services and the Defense Logistics Agency. In this role, the
    Defense Distribution Center operates 26 worldwide distribution centers. The
    Distribution Standard System (DSS) integrates all the basic distribution center
    operations of receiving, storage, shipping, inventory, and transportation. The
    distribution centers maintain the property accountability records for all materiel in
    storage, regardless of ownership. As of October 3, 2006, AMC reported that
    72 percent of the AWCF inventory was stored at distribution centers. The
    remaining 28 percent of AWCF inventory was stored at war reserve sites and
    Army-operated storage sites.


                                          1

           DoD Regulation 4140.1, “DoD Supply Chain Materiel Management Regulation,”
           May 23, 2003, requires DoD Components to establish a Physical Control Program
           that includes physical inventories, quality control, accuracy and performance
           goals, and reconciliation of asset balances. DoD 4000.25.2-M, “Military
           Standard Transaction Reporting and Accounting Procedures,” chapter 7,
           “Physical Inventory Control,” January 2006, defines the responsibilities of the
           storage activities and materiel managers for maintaining physical control and
           accountability for DoD inventory. Storage activities’ responsibilities include
           maintaining the inventory accountability records and researching discrepancies
           between the records and physical counts. 1 In November 2006, we reported that
           the distribution centers did not complete research of physical inventory
           discrepancies in a timely manner, retain adequate supporting documentation, or
           use the proper error codes to identify underlying causes. 2 In this report, we
           discuss the LCMC process of reconciling the AWCF inventory balances reported
           by the distribution centers to the balances recorded in the Army’s supply systems.

           DoD 4000.25-2-M, chapter 7, states that a fundamental requirement of inventory
           integrity is to have a total item property record, which includes a single, shared
           inventory balance maintained by the storage activity. DoD 4000.25-2-M
           recognizes that this technical capability does not exist and states that
           reconciliations are required until DoD agencies and Components establish a
           single, shared inventory balance.

           Each January, the distribution centers and LCMCs perform a reconciliation of
           inventory records for 100 percent of AWCF inventory. In addition, the
           distribution centers and LCMCs reconcile inventory records daily, as part of
           end-of-day business processes, for items having supply activity during the
           business day. DSS, the materiel management system for the distribution centers,
           generates a computer file of the balances for the AWCF inventory items managed
           by the LCMCs. The LCMCs initiate the inventory reconciliation process by
           matching the asset balances shown on the DSS file with asset balances recorded
           in the AWCF supply systems. When differences exist between systems, the
           AWCF supply systems automatically create an Inventory Adjustment Gain–
           Accounting Error (Document Identifier Code D8B) or an Inventory Adjustment
           Loss–Accounting Error (Document Identifier Code D9B) transaction to adjust
           asset balances in the Army supply systems to agree with those recorded in DSS. 3
           The AWCF supply systems generate an Inventory Adjustment Report (IAR) that
           identifies all physical inventory adjustments (D8A and D9A transactions) and
           inventory accounting adjustments (D8B and D9B transactions) processed during
1
    Discrepancies between the accountable inventory records and physical counts result in recording either an
    inventory gain transaction (Inventory Adjustment Increase-Physical Inventory, Document Identifier Code
    D8A) or an inventory loss transaction (Inventory Adjustment Decrease-Physical Inventory, Document
    Identifier Code D9A.) These transactions also update the inventory balances in the AWCF supply
    systems. In LMP, an inventory gain transaction is represented by Movement Code 712, and an inventory
    loss transaction is represented by Movement Code 711.
2
    DoD Inspector General Report No. D-2007-009, “Internal Controls Over Inventory Stored at Defense
    Logistics Agency Distribution Depots,” November 1, 2006.
3
    For assets in a serviceable condition, the D8B and D9B transactions normally generate a debit or credit to
    the Inventory Purchased for Resale account-general ledger account code 1521, and an offsetting debit or
    credit to either the Other Gains account-general ledger account code 7190 or the Other Losses account-
    general ledger account code 7290.



                                                       2

     the month because of the automated reconciliations. DoD 4000.25-2-M assigns
     distribution centers the responsibility for researching the physical inventory
     adjustments. As part of the annual and end-of-day reconciliations, LCMC
     inventory technicians are responsible for researching the inventory accounting
     adjustments and processing any corrections resulting from erroneous, missing, or
     duplicate supply transactions. The LCMCs are also responsible for working with
     the distribution centers to isolate causes of record imbalances to maintain
     transaction-level integrity. The annual and end-of-day inventory reconciliations
     are essential controls to ensure that the inventory records used by the LCMCs for
     logistics management and financial accounting and reporting agree with the
     property accountability records maintained by the distribution centers.


Objective
     Our audit objective was to evaluate controls over the process of reconciling the
     AWCF inventory balances reported in DSS to the Army’s supply records. See
     Appendix A for a discussion of the scope and methodology. See Appendix B for
     prior coverage related to the objective.


Review of Internal Controls
     We identified material internal control weaknesses for the Army as defined by
     DoD Instruction 5010.40, “Managers’ Internal Control Program (MIC)
     Procedures,” January 4, 2006. AMC did not have effective internal controls to
     ensure that the LCMCs adequately reviewed and corrected inventory accounting
     adjustments resulting from the annual and end-of-day reconciliations. In addition,
     Army Regulation (AR) 740-26, “Storage and Supply Activities, Physical
     Inventory Control,” March 12, 2003, contained unclear and incomplete guidance
     on the requirements for reconciling inventory balances. Finally, LMP did not
     properly reverse gain and loss adjustments. The January 2007 annual
     reconciliation of AWCF inventory balances resulted in 3,679 inventory
     accounting adjustments with a total dollar value of $280.6 million. The lack of
     effective internal controls can result in inaccurate inventory records that distort
     the reports that inventory managers use to make decisions to buy, repair, and
     excess materiel. Furthermore, the lack of effective internal controls undermines
     the reliability and accuracy of the financial reports used to measure the
     performance of the AWCF Supply Management, Army activity group.

     Implementing Recommendations 2., 3., and 4. will improve procedures for
     reconciling the AWCF inventory records. A copy of the report will be provided
     to the senior Army official responsible for internal controls.




                                          3

Army Working Capital Fund Inventory
Accounting Adjustments
The LCMCs did not adequately review inventory accounting adjustments
resulting from discrepancies between the inventory balances recorded in
DSS and in AWCF supply systems. Specifically, the LCMCs did not:

         •	 follow consistent criteria in selecting the inventory
            accounting adjustments to review;

         •	 review adjustments in a timely manner;

         •	 correct erroneous, missing, or duplicate supply transactions;

         •	 retain adequate supporting documentation;

         •	 track and analyze supply transaction errors to identify the
            underlying causes for the inventory accounting adjustments;
            or

         •	 document management oversight and approval.

These conditions occurred because DoD 4000.25-2-M and AR 740-26
contained unclear and incomplete guidance on the requirements for
performing the annual and end-of-day reconciliations of inventory
balances. In addition, AMC did not effectively monitor the LCMC
inventory reconciliations, and the LCMCs did not have effective
procedures for or controls over selecting, reviewing, correcting,
documenting, analyzing, and approving inventory accounting adjustments.
Furthermore, LMP did not properly reverse gain and loss adjustments.
Inaccurate inventory records in the Army supply systems distort the
reports that inventory managers use to make decisions to buy, repair, and
excess materiel, and impact the reliability and accuracy of the financial
reports used to measure the performance of the AWCF Supply
Management, Army activity group.




                             4

Criteria
     DoD 4000.25-2-M requires annual and end-of-day inventory reconciliations that
     compare the Defense Distribution Center inventory balances recorded in DSS
     with the LCMC asset balances recorded in the AWCF supply systems. The
     purpose of the annual reconciliation is to identify and correct the following
     situations:

            •	 quantity discrepancies;

            •	 an inventory record in the AWCF supply systems with no matching
               DSS storage record;

            •	 a DSS storage record with no matching inventory record in the AWCF
               supply systems; and

            •	 common elements of data, such as unit of issue and controlled
               inventory item code that do not match.

     DoD has established an accuracy goal of 97 percent for the annual inventory
     reconciliation between the inventory balances recorded in DSS and AWCF supply
     systems.

     According to DoD 4000.25-2-M, the distribution centers are responsible for
     researching the causes of physical inventory adjustments (D8A and D9A
     transactions) while the LCMCs are responsible for reviewing the inventory
     accounting adjustments (D8B and D9B transactions). As part of the annual
     reconciliation, inventory materiel managers at the LCMCs are required to
     research the causes of inventory accounting adjustments meeting the following
     criteria:

            •	 all classified and sensitive items regardless of dollar value,

            •	 pilferable and certain controlled items exceeding $2,500, and

            •	 all adjustments with an extended value (quantity multiplied by unit
               cost) greater than $16,000 or greater than a 25-percent unit variance
               with a total extended value greater than $5,000.

     The purpose of the end-of-day reconciliation is to match all active records and
     update the on-hand balances. LCMCs should also work with the distribution
     centers to isolate causes of record imbalances to maintain transaction-level
     integrity.

     Inventory accounting adjustments are often the result of duplicate and missing
     supply transactions. The LCMCs are responsible for researching Army supply
     systems inventory records and, if needed, the DSS inventory records to resolve
     the discrepancies and correct the Army supply systems records. The LCMCs can
     request that a distribution center perform a physical inventory if research of the
     inventory records fails to resolve the discrepancy. DoD 4000.25-2-M requires


                                          5

           that the materiel manager retain the supporting documentation for researching
           inventory adjustments for at least 2 years. The LCMCs are also required to
           collect and maintain performance data on the number and dollar value of
           accounting adjustments processed during the annual and daily inventory
           reconciliations.

           AR 740-26, “Storage and Supply Activities, Physical Inventory Control,”
           March 12, 2003, requires the LCMCs to perform daily and annual reconciliations
           between the inventory balances reported by the storage activities and the asset
           balances reported by the LCMCs. Appendix G, “Minimum Research
           Requirements for Potential or Actual Physical Inventory Adjustments,” lists the
           criteria for performing causative research for inventory adjustments as outlined in
           DoD 4000.25-2-M. However, AR 740-26 states that the criteria in Appendix G
           apply only to adjustments made by Army storage activities to the official
           accountable property records. In addition, AR 735-5, “Policies and Procedures
           for Property Accountability,” February 28, 2005, requires AMC supply
           distribution activities to perform causative research for potential inventory losses
           greater than $25,000 before processing an inventory adjustment.


Scope of Inventory Accounting Adjustments
           The annual and end-of-day inventory reconciliations between DSS and Army
           supply systems resulted in a substantial number and dollar value of inventory
           accounting adjustments. The annual inventory reconciliation, based on inventory
           balances as of January 2007, resulted in 3,679 adjustments to AWCF asset
           balances. The adjustments caused inventory gains and losses totaling
           $280.6 million (absolute value). The table on the next page contains a breakout
           of the AWCF inventory accounting adjustment gains and losses, by LCMC,
           provided by the LCMCs. 4 It also shows the overall inventory reconciliation
           accuracy rate reported on the 309 Report, “Location Audit Discrepancy Summary
           Listing.” 5




4
    The annual reconciliation included AWCF inventory assets and major end items such as tanks, vehicles,
    aircraft, and communication equipment purchased using Army procurement appropriation funds. At our
    request, the LCMCs queried Army supply systems to identify the inventory accounting adjustments
    related to AWCF assets and major end items. The dollar value of inventory gains and losses and the
    number of adjustments shown in the table include only AWCF inventory assets.
5
    The 309 Report, “Location Audit Discrepancy Summary Listing,” provides a summary of total inventory
    gains and losses and calculates the record accuracy rate. The report consolidates the inventory
    reconciliation results for both AWCF assets and major end items.



                                                     6

                     AWCF Totals for the January 2007 Reconciliation
                                       ($ millions)
                                                                    Number of    Accuracy
    LCMC         Total Gains   Total Losses       Gross Amount     Adjustments     Rate
AMCOM-
                   $ 51.5          $ 88.2          $139.7             612          96%
Aviation
AMCOM-
                      8.2             5.4             13.6            529          95%
Missile

TACOM-              14.1             25.8             39.9            315          96% 

Warren 

TACOM-Rock
                      5.8             9.5             15.3            224          98%
Island

TACOM-                1.1             0.7              1.8             56          94% 

Natick


CECOM               36.6             33.7             70.3          1,943          94%

    Total         $117.3           $163.3          $280.6           3,679           --



      Only TACOM-Rock Island met and exceeded the 97-percent inventory accuracy
      goal prescribed by DoD 4000.25-2-M.

      Like the annual reconciliation of inventory balances, the end-of-day
      reconciliations generated a significant number of inventory gain and loss
      adjustments. The LCMCs did not track the number and dollar value of
      adjustments resulting from the daily inventory reconciliations. To gain
      information on these inventory accounting adjustments, we obtained and
      summarized the March 2007 IAR for assets stored at the distribution centers.
      During March 2007, the LCMCs processed a total of 6,464 adjustments worth
      almost $1.7 billion. The IAR included inventory accounting adjustments
      affecting both AWCF assets and major end items purchased and accounted for by
      the Army General Fund.


Review of Inventory Accounting Adjustments
      The audit focused on the inventory accounting adjustments that resulted from the
      January 2007 annual reconciliation of the AWCF asset balances recorded in DSS
      and the balances recorded in the Army supply systems. We selected a judgmental
      sample of 62 of the 3,679 adjustments, valued at $132.3 million, to evaluate the
      processes used by the LCMCs for reviewing and correcting inventory accounting
      adjustments. The sample included 42 adjustments processed by LCMCs that used
      CCSS (AMCOM, TACOM-Warren, and TACOM-Rock Island) and 20
      adjustments processed by CECOM, which used LMP. We focused more on


                                            7

adjustments processed by CECOM because LMP is the Army’s system that will
replace CCSS. We reviewed the six sample items that the LCMCs had researched
prior to our site visits from January through April 2007. For the 56 sampled
adjustments that the LCMCs had not reviewed prior to our site visits, we
requested that the inventory personnel complete their research and corrective
actions and provide us with their information.

Inventory personnel at the LCMCs did not perform a complete and adequate
review of inventory accounting adjustment transactions made to reconcile Army
supply systems inventory balances to those recorded in DSS. Inventory managers
at all the LCMCs stated that available resources limited their reviews of inventory
accounting adjustments. The inventory personnel used the IAR to select
transactions for review and analysis. By reviewing transaction data in Army
supply systems and DSS, inventory personnel could normally identify the
erroneous, missing, or duplicate supply transactions causing the accounting gain
or loss adjustment. However, the LCMC procedures for selecting, reviewing,
correcting, documenting, analyzing, and approving inventory accounting
adjustments did not ensure accurate inventory and financial records.

Selecting. The LCMCs did not follow consistent criteria in selecting the
inventory adjustment transactions from the IAR to review. LCMCs selected
adjustments for review in the following ways.

       •	 CECOM personnel reviewed all physical inventory gain and loss
          adjustments valued at more than $25,000 and a limited sample of
          inventory accounting adjustments, primarily adjustments valued at
          more than $1 million. CECOM personnel stated that they considered
          it more important to validate the physical inventory gains and losses
          processed by the distribution centers than to research the accounting
          gains and losses resulting from the reconciliation process.

       •	 TACOM-Warren and TACOM-Rock Island personnel reviewed a
          judgmental sample of both physical inventory adjustments and
          inventory accounting adjustments valued at more than $25,000.

       •	 AMCOM reviewed inventory accounting gain adjustments valued at
          more than $50,000 and loss adjustments valued at more than $25,000.
          In addition, AMCOM personnel reviewed atypical physical inventory
          gain and loss adjustments.

Inventory technicians at the LCMCs generally focused on inventory adjustments
greater than $25,000 to review, as prescribed by AR 735-5. However, the criteria
in AR 735-5 apply to accountable property officers at AMC supply distribution
activities, not to inventory technicians at the LCMCs. In addition, AR 735-5 is in
direct conflict with DoD 4000.25-2-M, which requires that all storage activities
review physical inventory losses valued at more than $16,000. The LCMCs
should select for review all adjustments meeting the criteria identified in DoD
4000.25-2-M. If resource constraints prevent the review of adjustments meeting
established criteria, the LCMCs should focus available resources on researching
and correcting inventory accounting gain and loss adjustments that most affect the
accuracy of supply management and financial data.


                                     8

Reviewing. The LCMCs did not review inventory accounting adjustments in a
timely manner. DoD 4000.25-2-M requires storage activities to complete
causative research within 45 days of posting a physical inventory adjustment but
does not establish a timeframe for researching inventory accounting adjustments
processed by the LCMCs. At the time of our visits, the LCMCs had reviewed
only 6 of the 62 inventory accounting adjustments sampled. The LCMCs
reviewed the remaining 56 adjustments at our request from April through
August 2007. We requested the results of their research more than 3 months after
the January 2007 annual inventory reconciliation. The LCMCs had not
established a timeframe for researching and correcting inventory accounting
adjustments selected for review from the monthly IAR. In addition,
TACOM-Warren and TACOM-Rock Island did not track the time taken to
complete the review of the selected inventory adjustments. At AMCOM,
personnel stated that they were 9 months behind in researching some monthly
IARs. CECOM generally completed the reviews of selected adjustments within
2 or 3 months. Timely review of inventory adjustments decreases the volume of
records that the LCMC personnel must research to identify the erroneous or
missing supply transactions that caused the adjustments and expedites the
recording of the correcting transactions.

Correcting. For those inventory accounting adjustments we selected for our
review, AMCOM, TACOM-Rock Island, and TACOM-Warren corrected the
erroneous, missing, or duplicate transaction documents that caused the
discrepancies between DSS and CCSS inventory balances. Following normal
business practices, personnel at AMCOM, TACOM-Rock Island, and
TACOM-Warren researched the 42 inventory accounting adjustments sampled
and determined that 12 adjustments resulted from offsetting gains and losses. For
two additional transactions, the resulting inventory adjustment from the
reconciliation was correct. In both cases, the CCSS supply records were accurate.
For the remaining 28 inventory accounting adjustments, personnel reversed the
gain or loss adjustment and posted the correct supply transaction. However, for
the 20 CECOM adjustments sampled, technicians researched and identified the
transactions that caused the inventory accounting adjustments, but—following
normal business practices—did not correct LMP. CECOM inventory technicians
reviewed the balance in LMP to ensure that it matched the balance in DSS, but
did not correct the LMP transaction history because doing so was not required as
a part of the standard operating procedures. The following two examples
demonstrate the significance of ensuring accurate information in the Army supply
systems.

        CCSS Adjustment. CCSS posted an inventory accounting adjustment
loss of $118,080 on January 11, 2007, for a TACOM-Warren-managed item. In
response to our request for information on the annual reconciliation, inventory
technicians researched the adjustment and determined that the distribution center
had posted in DSS on December 21, 2006, a reversal of a materiel receipt from a
procurement transaction for 180 electrical fuel pumps. However, the reversal
transaction did not post in CCSS. The transaction reduced the on-hand asset
balance in DSS. On May 11, 2007, the TACOM-Warren inventory technician
reversed the $118,080 inventory adjustment loss and posted in CCSS the original
DSS document that reversed the materiel receipt from procurement. If the
inventory technicians had not reversed the inventory accounting adjustment and


                                    9

posted the materiel receipt reversal transaction, CCSS supply records would have
understated the number of electrical fuel pumps due-in from procurement by
180 items. In addition, CCSS financial records would have overstated the Other
Losses account–general ledger account code 7290 by $118,080.

        LMP Adjustment. LMP posted an inventory accounting adjustment gain
of $1.1 million for 2,000 antennas on January 11, 2007. A comparison of DSS
and LMP inventory transaction histories for this CECOM-managed item showed
that receipts from procurement transactions for 1,764 antennas on
January 5, 2007, and for 236 antennas on January 8, 2007, had posted in DSS but
not in LMP. The receipts from procurement transactions increased the on-hand
asset balance in DSS above the balance recorded in LMP. Because the inventory
technicians did not reverse the inventory accounting gain for the 2,000 antennas
recorded in LMP as of January 10, 2007, and post the two materiel receipt
transactions in LMP, the inventory supply records continued to overstate antennas
due-in from procurement by 2,000. In addition, the inventory technicians did not
update the accounting records to reflect an increase in accounts payable and a
decrease in undelivered orders.

       The LCMCs should thoroughly research inventory accounting adjustments
and process correcting transactions to ensure that supply management and
financial data are recorded accurately.

Documenting. The LCMCs did not follow consistent procedures for retaining
documentation to support research performed and corrective actions taken.
DoD 4000.25-2-M requires that the inventory manager retain documentation of
causative research of inventory accounting adjustments for at least 2 years. At
TACOM-Rock Island, the accountable property officer retained the IAR and the
CCSS and DSS supply transaction histories supporting the research performed
and corrective actions taken for 2 years. Inventory personnel at TACOM-Warren
stated that they did not retain the monthly IARs or documentation of causative
research for the full 2 years because of limited storage space. At AMCOM,
inventory technicians retained copies of the monthly IAR. However, they did not
retain the CCSS and DSS supply transaction histories to support research
performed and corrective action taken. At CECOM, personnel retained the
monthly IAR and supporting documentation, including the review checklist
completed by inventory personnel, for 2 years. Documentation of the research
performed and corrections made to supply management records provides an audit
trail that is essential for management oversight and support for supply adjustment
transactions that affect both supply management data and financial reports.

Analyzing. The LCMCs did not track and analyze supply errors to identify the
underlying causes for the inventory adjustments. Inventory adjustments are
normally the result of duplicate, erroneous, and missing supply transactions. An
analysis of supply transaction errors is vital to identify operational control failures
and system problems that require correction to reduce similar discrepancies in the
future. None of the LCMCs had procedures in place to track, analyze, and
evaluate the transaction errors that were causing inventory accounting
adjustments. Therefore, they did not identify or initiate action to correct the
underlying causes of the discrepancies in reported asset balances in the inventory
supply records. If LCMC inventory personnel had established a process to track


                                      10 

    and analyze supply transaction errors, personnel could identify and take action to
    correct common errors and system deficiencies. The LCMCs need to implement
    a process to track and analyze transaction errors to identify the underlying causes
    for the inventory adjustments.

    Approving. The LCMCs did not have adequate management oversight or
    documentation of the approval of inventory adjustment reviews performed by the
    inventory technicians. At TACOM-Warren and TACOM-Rock Island, managers
    did not review or approve the results of the technicians’ research of the inventory
    accounting adjustments and the corrective actions taken. At AMCOM, managers
    reviewed and approved the monthly IARs that technicians annotated to show that
    they researched the adjustments and what corrections they made. However,
    managers did not review supporting documentation. They also approved the
    IARs months after the adjustments were processed. At CECOM, managers
    tracked, reviewed, and approved the results of the technician’s research of
    inventory accounting and physical inventory adjustments. However, managers
    did not require that the technicians correct the erroneous, duplicate, or missing
    transactions that caused the adjustments. Managers required only that the balance
    in LMP match the balance in DSS. LCMC managers need to effectively oversee
    the inventory reconciliation process to ensure that inventory technicians are
    thoroughly researching adjustments, making corrections, and identifying and
    addressing underlying causes.


Controls Over Inventory Accounting Adjustments
    The control weaknesses in researching and correcting inventory accounting
    adjustments occurred because:

           •	 DoD 4000.25-2-M and AR 740-26 did not contain clear and complete
              guidance on the requirements for reviewing and correcting inventory
              accounting adjustments resulting from the annual and end-of-day
              reconciliations of inventory balances;
           •	 AMC personnel had not established a process to effectively monitor
              the inventory reconciliations performed by inventory technicians at the
              LCMCs;

           •	 the LCMCs had not implemented adequate operating procedures
              governing the process and controls for selecting, reviewing,
              correcting, documenting, analyzing, and approving inventory
              accounting adjustments; and

           •	 LMP did not properly process reversal adjustments.

    DoD 4000.25-2-M Requirements. Chapter 7, “Physical Inventory Control,”
    provides guidance on the physical control of and accountability for inventory by
    storage activities and the reconciliation of the inventory records reported by the
    storage activity to the inventory records maintained by the national inventory
    manager. DoD 4000.25-2-M provides storage activities with specific guidance


                                        11 

           and criteria on conducting physical inventories, resolving discrepancies between
           the accountable records and physical counts, and performing causative research to
           identify and correct the situations causing recurring errors. However, the
           guidance in DoD 4000.25-2-M governing the procedures that national inventory
           managers should follow in reconciling differences between inventory records was
           insufficient in the areas of causative research, end-of-day adjustments, and the
           date of the annual reconciliation.

                   Causative Research. As part of the annual inventory reconciliation
           process, DoD 4000.25-2-M requires that the inventory manager conduct causative
           research to resolve inventory accounting gain and loss adjustments. Managers
           should research adjustments to controlled and sensitive items, adjustments with
           an extended value greater than $16,000, and adjustments with greater than a
           25-percent unit variance with an extended value greater than $5,000.
           Discrepancies in the inventory balances reported by the storage activity and the
           inventory manager are often the result of duplicate transactions, errors, and delays
           in recording inventory receipts, issues, and adjustments. However,
           DoD 4000.25-2-M does not clearly define the scope of the inventory manager’s
           responsibility for performing causative research to include whether the inventory
           manager was to identify and correct the duplicate, erroneous, or missing supply
           transactions that were causing the inventory accounting adjustments. In addition,
           DoD 4000.25-2-M does not require the inventory manager to classify, analyze,
           and evaluate supply transaction errors to determine the underlying system or
           operational deficiency that was causing incorrect or missing transactions.
           DoD 4000.25-2-M identifies a timeframe for researching physical inventory
           adjustments (45 days) but does not state a timeframe for researching inventory
           accounting adjustments. Failure to adequately research and correct inventory
           accounting adjustments, including those below the $16,000 threshold, can result
           in missing or erroneous issue, receipt, and inventory transfer transactions that
           distort supply management data and financial records.

                   End-of-Day Adjustments. As part of the end-of-day inventory
           reconciliation process, DoD 4000.25-2-M states that the national inventory
           manager will “programmatically” 6 research asset record imbalances for delayed
           and duplicate transactions. For unresolved mismatched quantities, the national
           inventory manager will update inventory records to agree with the storage
           activity’s closing on-hand balance. However, DoD 4000.25-2-M did not require
           the inventory manager to research the resulting inventory accounting gain and
           loss adjustments resulting from end-of-day reconciliations to identify and correct
           erroneous, missing, or duplicate supply transactions. Over the course of the year,
           the number and dollar value of inventory accounting adjustment transactions
           resulting from the daily reconciliations of asset balances would far exceed the
           adjustments resulting from the annual reconciliation. DoD 4000.25-2-M should
           require national inventory managers to follow the same guidance and criteria for
           researching accounting adjustments resulting from both the annual and end-of-day
           reconciliations of inventory balances.

6
    CCSS and LMP have a program application that researches and matches delayed and duplicate supply
    transactions to reconcile the differences in asset balances reported by the supply activity and the LCMCs.
    If the program cannot reconcile the differences, it records the D8B inventory accounting gain or D9B
    inventory accounting loss.


                                                       12 

        Annual Reconciliation Date. DoD 4000.25-2-M establishes the second
Tuesday in January as the date for the annual reconciliation of inventory balances
reported by the distribution centers with balances recorded in the LCMC supply
systems. The annual reconciliation occurs almost 9 months before September 30
(fiscal year’s end). Inventory discrepancies occurring after the second Tuesday in
January that inventory technicians do not identify and correct during the end-of-
day reconciliation process would remain uncorrected until the annual
reconciliation in the subsequent fiscal year. As a result, the fiscal year-end
AWCF financial reports would be misstated. To illustrate, in our sample of
62 inventory accounting adjustments valued at $132.3 million, the FY 2006
financial reports should have included 7 adjustments valued at $17.4 million.
However, the systems did not make the automated adjustments until FY 2007.
DoD 4000.25-2-M states that the annual reconciliations are required until DoD
agencies and Components establish a single, shared inventory balance.
Performing the annual reconciliation closer to fiscal year’s end would reduce the
time that discrepancies could develop.

       The Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics should revise DoD 4000.25-2-M to define the
guidance and criteria for performing the annual and end-of-day inventory
reconciliations. In addition, the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics should require that storage activities and
inventory materiel managers perform the annual inventory reconciliations during
September, close to fiscal year’s end.

AR 740-26 Requirements. Army guidance needs to be clear and expand
DoD 4000.25-2-M requirements on performing the end-of-day and annual
reconciliation of inventory record balances. AR 740-26 describes the same
general end-of-day and annual inventory reconciliation processes contained in
DoD 4000.25-2-M. However, the regulation states that the criteria in Appendix G
for performing causative research, generally for adjustments valued at more than
$16,000 and for all controlled and sensitive inventory items, did not apply to
inventory accounting gain and loss adjustments resulting from the annual
reconciliation of asset balances. In addition, the regulation requires the LCMCs
to report the overall accuracy rate for the annual reconciliation of storage activity
and owner inventory balances to AMC. However, the regulation did not require
LCMCs to report on the end-of-day reconciliations or the results of research done
to correct the erroneous, missing, or duplicate transactions that caused the
inventory accounting adjustments. The Office of the Deputy Chief of Staff for
Logistics (Army G-4) will need to revise AR 740-26 requirements based on
revisions to DoD 4000.25-2-M.

AMC Oversight. AMC exercised minimal oversight of the annual and
end-of-day reconciliations of inventory records performed by the LCMCs. The
Office of the Deputy Chief of Staff for Operations and Logistics (G-3) at AMC
coordinated the annual reconciliation of inventory balances recorded by the
distribution centers with those recorded by the LCMCs. The LCMCs submitted
to AMC copies of the monthly 309 Report, which showed the number of asset
lines reconciled and the percentage of lines matching in DSS and the Army
supply systems. However, AMC did not require LCMCs to report on reasons for
failing to meet the DoD accuracy goal of 97 percent. The LCMCs neither


                                     13 

provided an analysis of the missing or erroneous supply transactions that caused
the inventory accounting gain or loss adjustments nor identified actions taken or
recommended to prevent the system and operational issues that caused the
missing or erroneous supply transactions. In addition, AMC did not receive data
from the LCMCs on the results of the end-of-day inventory reconciliations. AMC
needs to establish procedures requiring the LCMCs to report the information
required to effectively oversee the annual and end-of-day reconciliations of
inventory records and to address the underlying system and operational issues
requiring corrective action.

Standard Operating Procedures. The LCMCs did not have adequate standard
operating procedures for the review of inventory accounting adjustments resulting
from the annual and end-of-day reconciliations. Although the LCMCs had
standard operating procedures addressing inventory accounting adjustments
resulting from the end-of-day and annual reconciliations, the procedures were
deficient in several areas. Specifically, LCMCs lacked detailed procedures
establishing the:

       •	 criteria for selecting adjustments to review,

       •	 timeframe for completing reviews of inventory accounting
          adjustments,

       •	 methods for researching adjustments and correcting the underlying
          supply transactions that caused the discrepancy in asset balances,

       •	 documentation required to support the research performed and
          corrective actions taken,

       •	 process for tracking and analyzing supply transaction errors to identify
          and correct trends causing the inventory adjustments, and

       •	 methods for documenting management approval and oversight.

In addition, the LCMCs applied guidance from AR 735-5, which addresses
procedures and criteria for reviewing physical inventory adjustments and uses a
different dollar threshold for researching adjustments than DoD 4000.25-2-M. A
summary of the information contained in the standard operating procedures for
individual LCMCs is contained in Appendix C. Pending revisions to
DoD 4000.25-2-M and AR 740-26, AMC should issue interim guidance to the
LCMCs on developing standard operating procedures for selecting, reviewing,
correcting, documenting, analyzing, and approving the inventory accounting
adjustments resulting from the annual and end-of-day reconciliations.
Furthermore, the Office of the Deputy Chief of Staff for Logistics (Army G-4)
will need to revise AR 735-5 requirements for physical inventory adjustments to
reflect those in DoD 4000.25-2-M.

LMP Reversals. LMP did not provide the capability to reverse inventory
accounting gain and loss adjustments that were automatically created as a result
of the reconciliation of DSS and LMP asset balances. Rather, LMP required
personnel to create an offsetting gain or loss transaction to eliminate the


                                    14 

    system-generated inventory accounting adjustment. For assets in serviceable
    condition, the offsetting transaction adjusted the supply inventory record and the
    Inventory Purchased for Resale account-general ledger account code 1521 to the
    correct balance, and increased either the Other Gains account-general ledger
    account code 7190 or the Other Losses account-general ledger account code 7290.
    The inventory personnel could then correct the erroneous, missing, or duplicate
    transaction that caused the discrepancy between DSS and LMP in the inventory
    balances.

    However, posting an offsetting inventory accounting gain or loss adjustment
    caused an overstatement of both the Other Gains account-general ledger account
    code 7190 and the Other Losses account-general ledger account code 7290. As a
    result, both the Gross Cost line and the Earned Revenue line on the AWCF
    Consolidated Statement of Net Cost were equally overstated, misrepresenting to
    the users of the financial statements the actual costs of operation and revenues
    generated by the AWCF. The Army Program Executive Officer, Enterprise
    Information Systems should change LMP functionality to provide the system
    capability to reverse inventory accounting gain and loss adjustments created by
    the inventory reconciliation process.


Conclusion
    The annual and end-of-day inventory reconciliations are essential controls to
    ensure that the property accountability records maintained by distribution centers
    agree with the inventory records used by the LCMCs for supply management data
    and financial reporting. However, the LCMCs did not perform a complete and
    adequate review of inventory accounting adjustment transactions made to
    reconcile Army supply systems inventory balances to those recorded in DSS. The
    lack of effective processes and controls over the inventory reconciliations can
    result in inaccurate inventory records that distort the reports that inventory
    managers use to make decisions to buy, repair, and excess materiel, and impact
    the reliability and accuracy of the financial reports used to measure the
    performance of the AWCF Supply Management, Army activity group.

    The Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics needs to revise DoD 4000.25-2-M guidance and criteria for performing
    the annual and end-of-day inventory reconciliations. In addition, the Office of the
    Deputy Chief of Staff for Logistics (Army G-4) needs to revise AR 740-26 and
    AR 735-5 requirements based on revisions to the DoD 4000.25-2-M. AMC needs
    to establish a process to monitor the LCMCs inventory reconciliations, and the
    LCMCs need to implement more effective procedures and controls over selecting,
    reviewing, correcting, documenting, analyzing, and approving inventory
    accounting adjustments. In addition, the Army Program Executive Officer,
    Enterprise Information Systems needs to change LMP functionality to process
    adjustments that reverse inventory accounting gain and loss transactions.




                                        15 

Management Comments on the Review of Internal Controls
    Management Comments. The Director for Internal Review and Audit
    Compliance, responding for the Commander, AMC, did not agree with the audit
    conclusion that material internal control weaknesses existed in the process of
    reconciling the AWCF inventory balances reported in DSS to the Army’s supply
    records. The Director stated that AMC personnel manage the annual inventory
    reconciliation and provide oversight at a macro level. The Director also stated
    that, despite the lack of a formal written policy memorandum or Letter of
    Agreement to enforce AR 740-26 requirements, AMC personnel continuously
    work and communicate with the LCMCs to ensure performance and reporting of
    all annual reconciliations of inventory. Specifically, AMC monitors the annual
    inventory audit schedule and, since November 2007, has required the LCMCs to
    analyze and report on depots not meeting the DoD accuracy goal of 97 percent.

    Audit Response. DoD Instruction 5010.40, “Managers’ Internal Control
    Program (MIC) Procedures,” January 4, 2006, states that a material weakness is a
    reportable condition that the head of the DoD Component determines to be
    significant enough to be reported to the next higher level. The determination of
    materiality is management’s judgment. However, in our opinion, the lack of
    effective internal controls over the inventory reconciliation process could result in
    a material misstatement of the financial statements or other financial reports that
    would not be prevented or detected. The January 2007 annual reconciliation of
    AWCF inventory balances resulted in 3,679 inventory accounting adjustments
    with a total value of $280.6 million. In addition, the end-of-day reconciliations
    generated a significant number of inventory gain and loss adjustments. Often
    these inventory accounting adjustments are the result of erroneous, missing, or
    duplicate supply transactions. If the transactions are not reversed and the correct
    supply transactions posted, supply records may report invalid due-ins from
    procurement and depot repair, and financial reports may misstate the value of
    accounts payable and undelivered orders. At the time of the audit, AMC did not
    require the LCMCs to summarize and report on the underlying causes identified
    for not achieving the DoD accuracy goal or to identify corrective actions taken or
    recommended. In addition, the annual audit schedule and associated instructions
    did not contain any detail about how to perform the reconciliations, and
    Headquarters AMC personnel did not perform a detailed review of the 309
    Reports received from the LCMCs.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics revise DoD 4000.25-2-M guidance for performing
    the annual and end-of-day reconciliations of the storage activity’s inventory
    records to the national inventory manager’s records. Specifically:

          a. Define the national inventory manager’s responsibility for
    performing causative research to include identifying and correcting the


                                         16 

duplicate, erroneous, or missing supply transactions causing the inventory
accounting gain or loss adjustments.

       b. Require national inventory managers to classify, analyze, and
evaluate supply transaction errors to determine and correct the underlying
system or operational deficiencies causing the errors.

       c. Establish a timeframe for completing causative research of
inventory accounting adjustments and processing any correcting
transactions.

       d. Require the national inventory managers to follow the same
guidance and criteria for researching accounting adjustments resulting from
both the annual and the end-of-day inventory reconciliations.

        e. Require storage activities and inventory materiel managers to
perform the annual inventory reconciliations during September, close to
fiscal year’s end.

Management Comments. The Deputy Under Secretary of Defense for Logistics
and Materiel Readiness, Office of the Deputy Secretary of Defense for
Acquisition, Technology, and Logistics partially concurred and stated that by
September 30, 2008, his office would review guidance in DoD 4000.25-2-M for
performing annual and end-of-day reconciliations. However, the Deputy Under
Secretary stated that scheduling the annual inventory records reconciliation for all
DoD agencies and Components during September would not allow the required
45 days for correcting errors before fiscal year’s end. As an alternative to our
recommendation, the Deputy Under Secretary recommended that the storage
activities and inventory materiel managers perform the annual reconciliation of
inventory records before storage activities perform their annual physical
inventories. The storage activities schedule the annual physical inventories close
to the fiscal year’s end to comply with the Chief Financial Officers Act.

Audit Response. Management comments are responsive and meet the intent of
the recommendation. Performing the annual inventory records reconciliation
before the physical inventories and close to fiscal year’s end would reduce the
time that discrepancies could develop between asset balances reported by the
storage activities and balances recorded in the DoD agencies’ and Components’
supply systems.

2. We recommend that the Deputy Chief of Staff for Logistics (Army G-4):

       a. Update Army Regulation 740-26 based on the revised
DoD 4000.25-2-M requirements for performing the annual and end-of-day
reconciliations of inventory records.

       b. Revise Army Regulation 735-5 criteria for researching physical
inventory adjustments to agree with DoD 4000.25-2-M.

Management Comments. The Director of Supply, Office of the Deputy Chief of
Staff for Logistics (Army G-4), concurred and stated that Army G-4 will update


                                     17 

ARs 740-26 and 735-5 to agree with the revised requirements of
DoD 4000.25-2-M. Army G-4 will incorporate the DoD 4000.25-2-M revisions
in the next published update of ARs 740-26 and 735-5.

Audit Response. The Director of Supply, Office of the Deputy Chief of Staff for
Logistics (Army G-4) comments are responsive and meet the intent of the
recommendation.

3. We recommend that the Commander, U.S. Army Materiel Command:

       a. Implement procedures to improve oversight of the annual and
end-of-day inventory records reconciliations by requiring the Army Life
Cycle Management Commands to:

             (1) Include with the 309 Report a summary analysis of the
underlying causes identified for not achieving the DoD accuracy goal on the
annual reconciliation of inventory records.

             (2) Identify actions taken or recommended to address the
system and operational issues causing the erroneous, missing, and duplicate
supply transactions that result in inventory accounting gain and loss
adjustments.

              (3) Accumulate and report quarterly the total number and
dollar value of inventory accounting gain and loss adjustments (D8B and
D9B transactions) resulting from the end-of-day inventory records
reconciliations.

Management Comments. The Director for Internal Review and Audit
Compliance, responding for the Commander, AMC, partially concurred and
stated that the LCMCs started in November 2007 to analyze and report on depots
not meeting the DoD accuracy goal of 97 percent. In addition, actions are
ongoing to address system and operational issues affecting inventory gain and
loss adjustments. The Director stated that the LCMCs promptly review and
implement cost-effective trouble tickets, engineering change requests, operational
system changes, and process-improvement recommendations. The Director
partially concurred with requiring all LCMCs to report quarterly results of the
end-of-day reconciliations. The Director stated that LMP has the capability to
report information on the end-of-day reconciliations, and CECOM will
accumulate and report quarterly the results of the inventory reconciliations. AMC
will require the other LCMCs to submit quarterly reports when the Army fields
LMP to the other LCMCs, starting with AMCOM in March 2009.

Audit Response. Management comments are responsive. Accumulating and
reporting information on inventory accounting gain and loss adjustments will
focus attention on system and operational issues that could adversely affect Army
plans to improve logistical operations and financial management.

       b. Pending revisions to DoD 4000.25-2-M and Army Regulation
740-26, issue interim guidance to the Army Life Cycle Management



                                    18 

Commands for performing the annual and end-of-day reconciliations of
inventory records. Specifically:

               (1) Establish standard criteria for selecting adjustments to
research. If available resources constrain the review of adjustments, require
the Army Life Cycle Management Commands to focus on the inventory
accounting gain and loss adjustments that most affect the accuracy of supply
management and financial data.

             (2) Identify a standard timeframe for completing research of
inventory accounting adjustments.

               (3) Require the Army Life Cycle Management Commands to
include in their operating procedures detailed guidance for:

                    (a) researching adjustments and correcting the
underlying supply transactions that caused the discrepancy in asset balances;

                      (b) documenting the causative research performed and
corrective actions taken, and retaining supporting documentation;

                      (c) tracking and analyzing supply transaction errors to
identify the root cause of the inventory adjustments; and

                       (d) documenting management approval and oversight.

Management Comments. The Director for Internal Review and Audit
Compliance, responding for the Commander, AMC, concurred and stated that
AMC will develop and issue guidance to the LCMCs on performing
reconciliations of inventory records. The guidance will include standard criteria
for selecting adjustments to review and a timeframe for completing the reviews.
AMC will instruct the LCMCs to develop written operating procedures that
include the recommended detailed guidance. The estimated completion date is
September 30, 2008.

Audit Response. The Director for Internal Review and Audit Compliance
comments are responsive and meet the intent of the recommendation.

4. We recommend that the Army Program Executive Officer, Enterprise
Information Systems change the Logistics Modernization Program
functionality to provide the system capability to reverse inventory
accounting gain and loss adjustments created by the inventory reconciliation
process.

Management Comments. The Director for Acquisition Management, Program
Executive Office, Enterprise Information Systems nonconcurred and stated that
LMP does not allow for the cancellation of standard inventory adjustments.
Additionally, for audit and security reasons, it is a best business practice not to
allow cancellation of standard inventory adjustments of goods movements.




                                     19 

Audit Response. Management comments are not responsive. We did not
recommend that the Army change LMP functionality to allow cancellation of an
inventory accounting adjustment. The intent of our recommendation is to provide
LMP users the capability to reverse inventory accounting gain and loss
adjustments rather than follow the current practice of creating an offsetting gain
or loss transaction. Posting an offsetting inventory accounting gain or loss
adjustment caused an overstatement of both the Other Gains account-general
ledger account code 7190 and the Other Losses account-general ledger account
code 7290. Reversing a system-generated accounting adjustment transaction
would adjust the Other Gains and Other Losses accounts to the correct balance
and provide LMP users and auditors a complete history of all transactions
affecting the system-generated inventory accounting adjustment. This capability
exists in other systems. The Enterprise Business System, the logistics and
financial management system used by the Defense Logistics Agency,
incorporated additional codes that identify adjustments requiring research and
allow the user to reverse inventory accounting gain or loss adjustments. From a
DoD-wide perspective, this difference in handling adjustments causes an
inconsistency in the reporting of financial information by the DoD Components.
If LMP will not permit the reversal of the standard inventory accounting gain and
loss adjustment transactions (technically referred to as SAP inventory movement
types 711 and 712), the Program Executive Officer, Enterprise Information
Systems should incorporate additional codes into LMP that would identify
inventory accounting adjustments and allow users to reverse the adjustments. We
request that the Army Program Executive Officer, Enterprise Information
Systems reconsider its position and provide additional comments on the final
report.




                                    20 

Appendix A. Scope and Methodology 

   We conducted this audit from November 2006 through December 2007 in
   accordance with generally accepted auditing standards. Those standards require
   that we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based on our audit
   objectives. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based on our audit objectives.

   We reviewed the guidance and controls over the process of reconciling the
   AWCF inventory balances reported in DSS to those in the Army’s supply records.
   We reviewed the consistency and completeness of guidance contained in
   DoD 4000.25.2-M, AR 735-5, and AR 740-26. In addition, we interviewed
   representatives from the Defense Logistics Agency, Office of the Deputy Chief of
   Staff for Logistics (Army G-4), and AMC to discuss and clarify regulatory
   guidance on the inventory reconciliation process. We also interviewed AMC
   personnel in the Office of the Deputy Chief of Staff for Operations and Logistics
   (G-3) to determine what process they used to monitor the inventory
   reconciliations performed by materiel managers at their subordinate LCMCs. We
   also obtained and analyzed the reports received by AMC on the results of the
   January 2007 reconciliations of inventory balances performed by the LCMCs.

   We reviewed the LCMC standard operating procedures and interviewed personnel
   to identify the procedures and controls the LCMCs used to select, review, correct,
   document, analyze, and approve inventory accounting adjustments. We obtained
   and summarized the number and dollar amounts of inventory accounting
   adjustments resulting from the January 2007 annual reconciliation and the
   end-of-day reconciliations processed during March 2007. We selected a
   judgmental sample of 62 inventory accounting adjustments valued at
   $132.3 million from the January 2007 reconciliation to evaluate the four LCMC
   processes for reviewing and correcting adjustments. We focused on the inventory
   accounting adjustments because, according to DoD 4000.25.2-M, the LCMCs are
   responsible for researching the causes for them. In addition, we coordinated with
   the Army Program Management Office, LMP to determine how LMP processed
   adjustments that reverse inventory accounting gain and loss transactions.

   Use of Computer-Processed Data. We used logistical and accounting data
   generated by DSS, CCSS, and LMP to perform this audit. We did not test the
   general and application controls in the systems and did not make any conclusion
   about the reliability of the data. As discussed in the finding, inventory accounting
   adjustments were often the result of erroneous, missing, or duplicate transactions
   that caused discrepancies between DSS and either CCSS or LMP. In addition,
   LMP lacked the capability to reverse inventory accounting gain and loss
   adjustment transactions correctly. Although we did not perform a formal
   reliability assessment of computer-processed data, we did not find errors that
   would preclude the use of the computer-processed data from meeting the audit
   objective or that would change the conclusions in the report.




                                        21 

Government Accountability Office High-Risk Areas. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the DoD Approach to Business Transformation,
Financial Management, and Supply Chain Management high-risk areas.




                                   22 

Appendix B. Prior Coverage 

      During the last 5 years, GAO, Department of Defense Inspector General
      (DoD IG), and the Army Audit Agency (AAA) have issued seven reports
      discussing Army inventory and Army inventory systems. Unrestricted GAO
      reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
      DoD IG reports can be accessed at http://www.dodig.mil/audit/reports. AAA
      reports are restricted to military domains and GAO. They can be accessed at
      https://www.aaa.army.mil/reports.htm.


GAO
      Report No. 06-983T, “DOD’s High Risk Areas: Challenges Remain to Achieving
      and Demonstrating Progress in Supply Chain Management,” July 25, 2006

      Report No. 06-512, “Defense Inventory: Actions Needed to Improve Inventory
      Retention Management,” May 2006

      Report No. 06-209, “Defense Inventory: Army Needs to Strengthen Internal
      Controls for Items Shipped to Repair Contractors,” December 2005

      Report No. 05-775, “Defense Logistics: DOD Has Begun to Improve Supply
      Distribution Operations, but Further Actions Are Needed to Sustain These
      Efforts,” August 2005

      Report No. 04-615, “DOD Business Systems Modernization: Billions Continue to
      be Invested With Inadequate Management Oversight and Accountability,”
      May 2004


DoD IG
      Report No. D-2007-009, “Internal Controls Over Inventory Stored at Defense
      Logistics Agency Distribution Depots,” November 1, 2006


AAA
      Report No. A-2007-0205-FFM, “Logistics Modernization Program System
      Federal Financial Management Improvement Act of 1996 Compliance-First
      Deployment Functionality,” September 7, 2007




                                         23 

Appendix C. 	Life Cycle Management Command
             Standard Operating Procedures

TACOM
           Inventory personnel at TACOM-Warren and TACOM-Rock Island developed
           detailed operating procedures for researching and correcting supply transactions
           rejected during the daily CCSS process cycles and for resolving differences in the
           supply transactions reported as processed in DSS and CCSS. In addition,
           TACOM personnel developed limited procedures for performing the annual
           reconciliation of inventory balances recorded in DSS and CCSS. The procedures
           required that the inventory technicians review all inventory accounting gain and
           loss adjustments, reverse incorrect adjustments, and record the correct supply
           transactions.

           However, the operating procedures did not contain detailed instructions on how to
           review, reverse, and record the correct supply transactions, nor establish
           timeframes for completing the reviews and retaining supporting documentation.
           In addition, the procedures did not address analyzing supply transaction errors to
           identify the root causes for the inventory adjustments and methods for
           documenting management oversight and approval. Further, TACOM operating
           procedures did not address reviewing the monthly IAR and the inventory
           accounting adjustments resulting from the end-of-day reconciliations.


AMCOM
           The standard operating procedures developed by AMCOM did include guidance
           for reviewing inventory accounting adjustments identified on the monthly IAR.
           The procedures established criteria for selecting adjustments to review and
           included general guidance on researching accounting gain and loss adjustments,
           reversing incorrect adjustments, and correcting supply transaction records. In
           addition, the procedures contained instructions requiring inventory technicians to
           annotate on the IAR the corrective actions taken, and they required that the team
           leader, supervisor, and accountable property officer review the annotated IAR.
           However, the operating procedures did not require technicians to maintain
           supporting documentation or research reversals and offsetting gain and loss
           adjustments. * In addition, the guidance did not state a timeframe for researching
           adjustments or require inventory personnel to track and analyze supply
           transactions to identify underlying causes for the inventory adjustments.

*
    Offsetting gains and losses are inventory accounting adjustments that cancel each other out. Technicians
    review the IAR to identify offsetting gains and losses posted to CCSS inventory records for the same line
    item. The technicians annotate the IAR to show the offsetting gain and loss adjustments. Offsetting gain
    and loss adjustments are generally the result of a delay in posting transactions to both DSS and CCSS or
    the reversal of previously recorded transactions.


                                                      24 

CECOM 

   In February 2007, shortly before our site visit, the accountable property officer
   and inventory personnel at CECOM revised written operating procedures for
   completing reviews of the inventory adjustments identified on the monthly IAR.
   The guidance was comprehensive and indicated that the accountable officer
   would review selected high-dollar inventory accounting adjustments, generally
   valued at more than $1 million. The operating procedures required:

          •	 inventory personnel to complete a checklist to document research
             performed,

          •	 inventory personnel to complete reviews within 2 weeks,

          •	 the accountable property officer to retain supporting documentation
             for 2 years,

          •	 the accountable property officer to maintain a register to track the
             status of reviews in process, and

          •	 the accountable property officer to review and approve the results of
             research performed.

   However, the operating procedures did not contain detailed instructions on how to
   reverse accounting adjustments and correct inventory supply records, nor did it
   address the process for tracking and analyzing transactions to identify root causes
   of the adjustments.




                                       25 

Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Program Executive Officer, Enterprise Information Systems

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          26 

Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       27 

Deputy Chief of Staff, Army G-4 Comments 





                      28 

Program Executive Office, Enterprise
Information Systems Comments




                      29 

Final Report
 Reference




Observations
previously
deleted from
draft report




               30 

U.S. Army Materiel Command Comments 





                    31 

32 

33 

34 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
Carmelo G. Ventimiglia
Robert J. Ringwald
Rebecca L. Niemeier
Karen A. Preston
Matthew F. Bengs
Lynn M. Irwin
Ann Thompson
Allison Tarmann
